No. 20-1768
IN THE SUPREME COURT OF THE UNITED STATES
RON FENN,
Petitioner,
v.

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Police Chief, LEE
ALIREZ, and DANIEL HICKS,
Respondents.
AFFIDAVIT OF SERVICE
I, Mark D. Standridge, being duly sworn according to law and being over
the age of 18, upon my oath depose and say that:
I am retained as Counsel for Respondents City of Truth or Consequences,
Michael Apodaca, and Police Chief Lee Alirez. On the 13th day of August, 2021,
I served these Respondents’ Brief in Opposition to Petitioner’s Petition for Writ
of Certiorari in the above-captioned matter upon:
A. Blair Dunn
400 Gold Ave. SW, Ste. 1000
Albuquerque, NM 87102
abdunn@ablairdunn-esq.com
Counsel for Petitioner
Stephen S. Hamilton
Kaleb W. Brooks
P.O. Box 2307
Santa Fe, New Mexico 87504-2307
shamilton@montand.com
kwbrooks@montand.com
Counsel for Respondent Hicks
by first class United States mail addressed to each individual respectively. An
electronic version was also served by email to each individual.
All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted,
/s/ Mark D. Standridge
Mark D. Standridge
Jarmie & Rogers, P.C.
2540 El Paseo Road, Suite D
Las Cruces, NM 88001
(575) 288-1453
mstandridge@jarmielaw.com
Counsel for Respondents City of Truth or
Consequences, Lee Alirez, and Michael
Apodaca

